CASE NO.
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
JASON SCOTT PEDRO,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PA UPERIS
Jason Scott Pedro, the petitioner, by and through his attorney who was
previously appointed under the Criminal Justice Act by the United States Court of
Appeals for the Tenth Circuit, moves this Court for an order allowing petitioner to
proceed in forma pauperis on his petition for writ of certiorari. Pursuant to Rule 3 9 .1
of this Court and 18 U.S.C. ยง 3006A(d)(7), petitioner is not required to submit the
affidavit described in 28 U.S.C. ยง 1915(a) and prescribed in Form 4 of the Federal
Rules of Appellate Procedure.
Respectfully submitted,

ASSISTANT FEDERAL PUBLIC DEFENDER
SUITE 109,215 DEAN A. McGEE AVENUE
OKLAHOMA CITY, OKLAHOMA 73102
(405) 609-5930
COUNSEL FOR PETITIONER
JASON SCOTT PEDRO

CERTIFICATE OF SERVICE
I hereby certify on this 7th day of May, 2021, a true and correct copy of the
above and foregoing Motion to Proceed In Forma Pauperis was mailed to: Ms.
Elizabeth Prelogar, Acting Solicitor General, Department of Justice, 950
Pennsylvania Avenue, NW, Washington, D.C. 20530-0001; Mary Elizabeth Walters,
Counsel for Respondent, Office of the United States Attorney, Western District of
Oklahoma, 210 West Park Avenue, Suite 400, Oklahoma City, OK 73102; and,
Robert J. Troester, Acting United States Attorney, Western District of Oklahoma,
210 Park Avenue, Suite 400, Oklahoma City, Oklahoma 73102.

2

